Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 THE MEDICARE CONTRACTOR
FOR JURISDICTION 14 OVERPAID
  PROVIDERS FOR SELECTED
     OUTPATIENT DRUGS




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                         John D. Hagg
                                               Acting Assistant Inspector General
                                                       for Audit Services

                                                            July 2014
                                                          A-01-13-00504
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  The Medicare contractor for Jurisdiction 14 overpaid providers by $1.3 million for
  selected outpatient drugs over 3 years.

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) pays Medicare claims through the
Medicare administrative contractor or fiscal intermediary (Medicare contractor) in each
Medicare jurisdiction. From July 1, 2009, through June 30, 2012, Medicare contractors
nationwide paid hospitals $11.5 billion for outpatient drugs, which also include biologicals and
radiopharmaceuticals. Previous Office of Inspector General reviews of outpatient services have
found that Medicare contractors overpaid providers for selected outpatient drugs. This report is
part of a series of reports focusing on payments for selected outpatient drugs.

The objective of this review was to determine whether payments that the Medicare contractor for
Jurisdiction 14 made to providers for selected outpatient drugs were correct.

BACKGROUND

Providers report the outpatient drugs administered to Medicare beneficiaries using standardized
codes called Healthcare Common Procedure Coding System (HCPCS) codes and report units of
service in multiples of the units shown in the HCPCS narrative description. Correct payments
depend on accurate reporting of the HCPCS codes and units of service for each claim line item
billed. CMS designed a series of automatic system edits that Medicare contractors use to review
the units billed by providers, identify errors in billed amounts, and ensure that billed units that
exceed the edit threshold for a likely dose are validated before the claim line items are paid. In
this audit, we did not review entire claims; rather, we reviewed specific line items within the
claims.

During our audit period (July 1, 2009, through June 30, 2012), NHIC, Corp., was the Medicare
contractor for Jurisdiction 14 (Maine, Massachusetts, New Hampshire, Rhode Island, and
Vermont). For the five States, the Medicare contractor paid $767.7 million for 1.2 million line
items for selected outpatient drugs. We reviewed 779 line items with total payments of
$7.1 million that were at risk for overpayment.

Effective October 2013, National Government Services, Inc. (NGS), became the Medicare
contractor for Jurisdiction K, which covers the five States formerly under Jurisdiction 14 and the
two States (Connecticut and New York) formerly under Jurisdiction 13. NGS assumed
responsibility for claims paid by NHIC, Corp.; accordingly, we have addressed our findings and
recommendations to NGS for review and comment.

WHAT WE FOUND

Payments that the Medicare contractor for Jurisdiction 14 made to providers for 295 of the 779
line items for outpatient drugs we reviewed were not correct. These incorrect payments resulted


Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)                i
in overpayments of $1,318,065 and underpayments of $5,009 that the providers had not
identified, refunded, or adjusted by the beginning of our audit. Before our fieldwork, providers
refunded $205,948 of overpayments for another 53 line items. The remaining 431 line items
were correct.

For the 290 incorrect line items with overpayments of $1,318,065 that had not been refunded,
providers reported incorrect units of service, did not provide supporting documentation, used
incorrect HCPCS codes, reported a combination of incorrect units of service and incorrect
HCPCS codes, billed separately for an outpatient drug for which payment was packaged with the
primary service, and billed for noncovered use of a drug. For the five incorrect line items with
underpayments of $5,009 that had not been adjusted, we notified the providers of the
underpayments so that they could decide whether to submit adjustment claims.

Providers attributed the incorrect billings to clerical errors and to provider billing systems that
could not prevent or detect the incorrect billing of outpatient drug services. The Medicare
contractor overpaid these providers because there were insufficient edits in place to prevent or
detect overpayments.

WHAT WE RECOMMEND

We recommend that NGS:

    •   recover the $1,318,065 in identified overpayments,

    •   verify the payment of $5,009 in identified underpayments, and

    •   use the results of this audit in its ongoing provider education activities.

NATIONAL GOVERNMENT SERVICES, INC., COMMENTS

In written comments on our draft report, NGS stated that it would review the line items paid in
error to adjust and recover any overpayments and verify underpayments accordingly. NGS said
that it had recently conducted educational sessions with providers, instructing them on the proper
billing of drugs and biologicals, and that it would enhance its educational materials as needed
based on the results of this review.




Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)                ii
                                                     TABLE OF CONTENTS

INTRODUCTION .....................................................................................................................1

           Why We Did This Review .............................................................................................1

           Objective ........................................................................................................................1

           Background ....................................................................................................................1
                 Medicare Part B .................................................................................................1
                 Healthcare Common Procedure Coding System Codes.....................................2
                 Medicare Contractor Edits .................................................................................2
                 NHIC, Corp., and National Government Services, Inc......................................3

           How We Conducted This Review..................................................................................3

FINDINGS .................................................................................................................................3

           Federal Requirements ....................................................................................................5

           Overpayments to Providers That Billed Incorrectly or Did Not Document
            That the Services Billed Had Been Performed ...........................................................5
                  Incorrect Number of Units of Service ................................................................5
                  Lack of Supporting Documentation ...................................................................5
                  Incorrect Healthcare Common Procedure Coding System Codes .....................6
                  Combination of Incorrect Number of Units of Service and
                    Incorrect Healthcare Common Procedure Coding System Codes ..................6
                  Billed Separately for Packaged Services ..........................................................6
                  Noncovered Use of a Drug ................................................................................6

           Underpayments to Providers That Billed Incorrectly ....................................................7

           Causes of Incorrect Medicare Payments ........................................................................7

RECOMMENDATIONS ...........................................................................................................7

NATIONAL GOVERNMENT SERVICES, INC., COMMENTS ...........................................8

APPENDIXES

           A: Related Office of Inspector General Reports: Jurisdiction 14 ................................9

           B: Audit Scope and Methodology ..............................................................................10

           C: Federal Requirements Related to Medicare Contractor Payment and
               Provider Billing for Selected Outpatient Drugs ..................................................12

           D: National Government Services, Inc., Comments ...................................................14



Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)                                                           iii
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) pays Medicare claims through the
Medicare administrative contractor or fiscal intermediary (Medicare contractor 1) in each
Medicare jurisdiction. From July 1, 2009, through June 30, 2012, Medicare contractors
nationwide paid hospitals $11.5 billion for outpatient drugs, which also include biologicals and
radiopharmaceuticals. 2

Previous Office of Inspector General reports have found that Medicare contractors overpaid
providers by more than $122.4 million for outpatient drugs. We identified $4.6 million of these
overpayments in reviews of selected outpatient drugs at 39 providers and $24.2 million in
nationwide reviews of the drug Herceptin. We identified approximately $81.9 million of
payments for outpatient drugs in reviews of payments that exceeded provider charges by at least
$1,000 and identified approximately $11.7 million of payments for outpatient drugs in reviews of
payments at high risk for overpayments. 3 (See Appendix A for a list of reports related to
Jurisdiction 14.)

This report is part of a series of reports focusing on payments for selected outpatient drugs.

OBJECTIVE

Our objective was to determine whether payments that the Medicare contractor for Jurisdiction 14
made to providers for selected outpatient drugs were correct.

BACKGROUND

Medicare Part B

Part B of Medicare provides supplementary medical insurance, including coverage for the cost of
outpatient drugs. CMS administers Part B and contracts with Medicare contractors to, among
other things, determine reimbursement amounts and pay claims, conduct reviews and audits, and
safeguard against fraud and abuse. Medicare contractors must establish and maintain efficient

1
  Currently, Medicare administrative contractors pay Medicare claims. For some jurisdictions, fiscal intermediaries
paid claims during some or all of our audit period. In this report, the term “Medicare contractor” means the fiscal
intermediary or Medicare administrative contractor, whichever is applicable.
2
 Biologicals are medicinal preparations made from living organisms and their products (for example, serums,
vaccines, antigens, and antitoxins); radiopharmaceuticals are radioactive drugs used for diagnostic or therapeutic
purposes.
3
  Although the selected provider and Herceptin audits included only outpatient drugs, the payments-greater-than-
charges audits, with overpayments totaling $106 million, and the excessive-claim-payments audits, with
overpayments totaling $44 million, included all types of outpatient services. Some of the reviews of payments that
exceeded provider charges covered amounts between $500 and $1,000. We considered high-risk payments as those
that exceeded $10,000 for claims under Part B and exceeded $50,000 for claims for outpatient services. We
estimated the total overpayment amount for selected outpatient drug services for these audits.


Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)                                1
and effective internal controls. 4 These controls, including those over automatic data processing
systems, are intended to prevent increased program costs caused by incorrect or delayed
payments. Medicare contractors use the Common Working File (CWF) and Fiscal Intermediary
Standard System (FISS) to validate providers’ claims for outpatient services before paying the
claims. Medicare contractors calculate the payment for each outpatient service using FISS’s
Hospital Outpatient Prospective Payment System (OPPS). These three systems can also detect
certain improper payments.

Healthcare Common Procedure Coding System Codes

Medicare contractors pay providers using established rates for each hospital outpatient unit of
service claimed, subject to any Part B deductible and coinsurance. Medicare guidance requires
providers to submit accurate claims for outpatient services. Each submitted claim may contain
multiple line items that detail most provided services. 5 Providers must use standardized codes,
called Healthcare Common Procedure Coding System (HCPCS) codes, for drugs administered
and report units of service in multiples of the units shown in the HCPCS narrative description.
For example, if the description for the HCPCS code specifies 50 milligrams and 200 milligrams
are administered, units are shown as 4.

Medicare Contractor Edits

To reduce payment errors, CMS introduced a number of claims-review initiatives that identify
and address incorrect billing due to coverage or coding errors made by providers. One of these
review initiatives, established in January 2007, is the “Medically Unlikely Edits” prepayment
claims review program. Medically unlikely edits are developed and maintained by the CMS
National Correct Coding Initiative contractor. 6

Medically unlikely edits are automatic prepayment edits within the FISS that compare the billed
units with the maximum units of service for a given HCPCS code. The maximum units of
service are the maximum number of units that a provider would reasonably administer to a
patient for that service on a single date of service. A medically unlikely edit denies line items for
units of service that exceed the maximum units for the HCPCS code billed.

Medically unlikely edits, which are updated each quarter, do not exist for all HCPCS codes.
Before implementing new medically unlikely edits, CMS offers national health care




4
    CMS, Medicare Financial Management Manual, Pub. No. 100-06, chapter 7, section 10.
5
  Some claim line items included on outpatient claims do not identify the specific services provided but just identify
the revenue code and billed charges. These line items are generally not paid because the services are bundled into
other services that are specifically identified.
6
  The contractor, Correct Coding Solutions, LLC, provides a revised medically unlikely edit table to CMS each
quarter. CMS then distributes the revised medically unlikely edit table with the revised national correct coding
initiative table to Medicare contractors.



Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)                               2
organizations the opportunity to review and comment on the proposed edits. Medicare
contractors must include the medically unlikely edits in their payment systems. 7

NHIC, Corp., and National Government Services, Inc.

During our audit period (July 1, 2009, through June 30, 2012), NHIC, Corp., was the Medicare
contractor for Jurisdiction 14 (Maine, Massachusetts, New Hampshire, Rhode Island, and
Vermont).

Effective October 2013, National Government Services, Inc. (NGS), became the Medicare
contractor for Jurisdiction K, which covers the five States formerly under Jurisdiction 14 and the
two States (Connecticut and New York) formerly under Jurisdiction 13. NGS assumed
responsibility for claims paid by NHIC, Corp.; accordingly we have addressed our findings and
recommendations to NGS for review and comment.

HOW WE CONDUCTED THIS REVIEW

During our audit period, the Medicare contractor for Jurisdiction 14 paid providers
$767.7 million for 1.2 million line items for selected outpatient drugs. We reviewed 779 line
items 8 with total payments of $7.1 million that were at risk for overpayment. These line items
were for outpatient drugs with payment status indicator code “G” or “K.” 9 We used computer
matching, data mining, and other analytical techniques to identify the line items potentially at
risk for noncompliance with Medicare billing requirements. We evaluated compliance with
selected billing requirements, but we did not use medical review to determine whether services
were medically necessary.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix B for the details of our scope and methodology.

                                                   FINDINGS

Payments that the Medicare contractor for Jurisdiction 14 made to providers for 295 of the 779
line items for outpatient drugs we reviewed were not correct. These incorrect payments resulted

7
  CMS makes the majority of medically unlikely edits publicly available on its Web site. However, CMS does not
publish all medically unlikely edit values, particularly for outpatient drugs, because of fraud and abuse concerns.
8
  In this audit, we did not review entire claims; rather, we reviewed specific line items within the claims.
9
  “G” and “K” identify drugs that are separately paid by Medicare. “G” identifies drugs and biologicals paid using
the OPPS that include a pass-through payment. (Pass-through payments are additional payments made for a short
time to cover the cost for certain innovative medical devices, drugs, and biologicals that exceed Medicare’s OPPS
payment amount.) “K” identifies drugs, biologicals, therapeutic radiopharmaceuticals, brachytherapy sources of
radiation, blood, and blood products paid using the OPPS without a pass-through payment.


Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)                                3
in overpayments of $1,318,065 and underpayments of $5,009 that the providers had not
identified, refunded, or adjusted by the beginning of our audit. Before our fieldwork, providers
had refunded $205,948 of overpayments for another 53 line items. The remaining 431 line items
were correct.

For the 290 incorrect line items with overpayments of $1,318,065 that had not been refunded,
providers:

    •   reported incorrect units
        of service on 220 line
        items, resulting in
        overpayments of
        $1,035,528;

    •   did not provide
        supporting
        documentation for 45
        line items, resulting in
        overpayments of
        $213,948;

    •   used incorrect HCPCS
        codes on 17 line items,
        resulting in overpayments of $46,935;

    •   reported a combination of incorrect units of service and incorrect HCPCS codes on 6 line
        items, resulting in overpayments of $12,841;

    •   billed separately for an outpatient drug for which payment was packaged with the
        primary service on 1 line item, resulting in overpayments of $5,921; and

    •   billed for the noncovered use of a drug on 1 line item, resulting in overpayments of
        $2,892.

For the five incorrect line items with underpayments of $5,009 that had not been adjusted, we
notified the providers of the underpayments so that they could decide whether to submit
adjustment claims.

Providers attributed the incorrect billings to clerical errors and to provider billing systems that
could not prevent or detect the incorrect billing of outpatient drug services. The Medicare
contractor overpaid these providers because neither the CWF nor the FISS had sufficient edits in
place to prevent or detect the overpayments.




Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)            4
FEDERAL REQUIREMENTS

The Social Security Act (the Act) and CMS Pub. No. 100-04, Medicare Claims Processing
Manual (the Manual), provide overall requirements related to the billing and payment of hospital
outpatient services. They require that providers submit accurate and complete bills to Medicare
for allowable and covered services and identify the number of units of service for each outpatient
drug administered to a Medicare beneficiary using the correct HCPCS code. 10

See Appendix C for details on the Federal requirements related to Medicare contractor payment
and provider billing for selected outpatient drugs.

OVERPAYMENTS TO PROVIDERS THAT BILLED INCORRECTLY OR DID NOT
DOCUMENT THAT THE SERVICES BILLED HAD BEEN PERFORMED

Incorrect Number of Units of Service

Providers reported incorrect units of service on 220 line items, resulting in overpayments of
$1,035,528. The incorrect units of service involved 35 different outpatient drugs. The following
are examples:

       •   One provider administered 25 milligrams of risperidone to a patient and billed for 2,500
           units of service. Using the HCPCS description (injection, risperidone, long acting,
           0.5 milligrams), the correct number of units to bill for 25 milligrams was 50. On two
           separate occasions, this type of error occurred, and as a result, the Medicare contractor
           paid the provider $15,331 when it should have paid $3,476, an overpayment of $11,855.

       •   Another provider administered 76 milligrams (8 units of service) of doxorubicin
           hydrochloride liposome to a patient but incorrectly billed for 32 units of service
           (320 milligrams). Because the administration end time identified in the medical record
           was not entered in the pharmacy computer system until an automatic discharge time was
           entered, the units were automatically calculated using the incorrect end times. As a
           result, the Medicare contractor paid the provider $13,793 when it should have paid
           $2,964, an overpayment of $10,829.

In total, the Medicare contractor paid 44 providers $1,882,374 when it should have paid
$846,846, an overpayment of $1,035,528.

Lack of Supporting Documentation

Ten providers billed Medicare on 45 line items for which the providers did not provide any
documentation to support that a patient had received the drug service billed. The providers
agreed to cancel the claims associated with these line items or file adjusted claims and refund the
combined $213,948 in overpayments that they received.



10
     These requirements are found in the Act, § 1833(e), and the Manual, chapter 17, section 90.2.A.


Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)                 5
Incorrect Healthcare Common Procedure Coding System Codes

Providers used incorrect HCPCS codes on 17 line items, resulting in overpayments of $46,935.
For example, 1 provider billed Medicare on 1 line item for 500 units of epoetin alfa (HCPCS
code J0885). However, the provider should have billed for 500 units of darbopoetin alfa
(HCPCS code J0881), the drug actually administered. As a result of this error, the Medicare
contractor paid the provider $3,760 when it should have paid $1,104, an overpayment of $2,656.

In total, the Medicare contractor paid five providers $62,675 when it should have paid $15,740,
an overpayment of $46,935.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect units of service and incorrect HCPCS codes on
six line items. These errors resulted in overpayments of $12,841. For example, a provider billed
Medicare on 1 line item for 8 units of service for leuprolide acetate injection (HCPCS code
J1950, 3.75 milligrams per unit), which is indicated for treatment of endometriosis, uterine
leiomyoma, and malignant neoplasms of the breast. However, the provider should have billed
Medicare for 4 units of service for leuprolide acetate injection (HCPCS code J9217,
7.5 milligrams per unit), which is indicated for the treatment of prostate cancer and was the dose
actually administered. As a result of this error, the Medicare contractor paid the provider $3,817
when it should have paid $701, an overpayment of $3,116.

In total, the Medicare contractor paid five providers $19,289 when it should have paid $6,448, an
overpayment of $12,841.

Billed Separately for Packaged Services

One provider billed Medicare on one line item for zoledronic acid (HCPCS code J3487) rather
than ondansetron hydrochloride (HCPCS code J2405) the drug actually administered. This error
resulted in an overpayment of $5,921. Ondansetron hydrochloride is a packaged service.
Medicare pays for outpatient drugs that are considered primary procedures but does not pay
separately for outpatient drugs when their payment is packaged in the payment of a primary
procedure.

In total, the Medicare contractor paid the provider $5,921 when it should have paid $0, an
overpayment of $5,921.

Noncovered Use of a Drug

A provider billed Medicare for the noncovered use of an outpatient drug on one line item,
resulting in an overpayment of $2,892. The provider administered 22.5 milligrams (6 units) of
leuprolide acetate injection (HCPCS code J1950, 3.75 milligrams per unit), which is indicated
for the treatment of endometriosis and uterine leiomyomas and malignant neoplasms of the
breast. However, the beneficiary’s diagnosis was not covered under the Medicare contractor’s



Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)            6
local coverage determination. Medicare does not pay for drugs administered for services not
considered reasonable and necessary. As a result of this error, the Medicare contractor paid the
provider $2,892 when it should have paid $0, an overpayment of $2,892.

UNDERPAYMENTS TO PROVIDERS THAT BILLED INCORRECTLY

Two providers billed Medicare on five line items for outpatient drug services that included either
incorrect units of service, or a combination of incorrect units of service and incorrect HCPCS
codes, resulting in underpayments of $5,009. We identified these underpayments to the
providers so that they could decide whether to submit adjustment claims for the underpayment
amounts.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect billings to clerical errors and to provider billing systems
that could not prevent or detect the incorrect billing of outpatient drug services. These billing
system errors included chargemaster 11 errors and other system errors.

The Medicare contractor overpaid these providers because neither the CWF nor the FISS had
sufficient edits in place to prevent or detect the overpayments. In effect, CMS relied on
providers to notify the Medicare contractor of incorrect payments and on beneficiaries to review
their Medicare Summary Notice and disclose any overpayments. 12

Other required edits in the CWF and FISS did not detect the errors that we found because the
edits suspended only those payments that exceeded a payment amount threshold but did not flag
payments that exceeded maximum billing units. Medically unlikely edits, which deny line items
for excessive units of service billed, do not exist for all HCPCS codes.

                                          RECOMMENDATIONS

We recommend that NGS:

     •   recover the $1,318,065 in identified overpayments,

     •   verify the payment of $5,009 in identified underpayments, and

     •   use the results of this audit in its ongoing provider education activities.




11
  A provider’s chargemaster is an automatic data processing system that providers use as part of their billing
systems. The chargemaster contains data on every chargeable item or procedure that the provider offers, including a
factor that converts a drug’s dosage to the number of units to bill.
12
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)                                7
                NATIONAL GOVERNMENT SERVICES, INC., COMMENTS

In written comments on our draft report, NGS stated that it would review the line items paid in
error to adjust and recover any overpayments and verify underpayments accordingly. NGS said
that it had recently conducted educational sessions with providers, instructing them on the proper
billing of drugs and biologicals, and that it would enhance its educational materials as needed
based on the results of this review. NGS’s comments are included in their entirety as
Appendix D.




Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)           8
      APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS:
                           JURISDICTION 14

                         Report Title                               Report Number        Date Issued

 Medicare Contractors’ Payments in Jurisdiction 14 for
                                                                     A-01-11-00539       08/17/2012
 Full Vials of Herceptin Were Often Incorrect

 Review of Medicare Payments Exceeding Charges for
 Outpatient Services Processed by NHIC, Corp., in
                                                                     A-01-10-00502       12/21/2011
 Jurisdiction 14 for the Period January 1, 2006, Through
 June 30, 2009

 Review of High-Dollar Payments for Medicare Part B
 Claims Processed by First Coast Service Options, Inc.,              A-01-09-00513       10/13/2009
 for Calendar Years 2004-2006

 Review of High-Dollar Payments for Medicare Part B
 Claims Processed by NHIC, Corp., for Calendar Years                 A-01-08-00514       02/9/2009
 2004-2006

 Review of High-Dollar Payments for Medicare
 Outpatient Claims Processed by National Government
                                                                     A-01-08-00522       10/17/2008
 Services, Inc., of New Hampshire and Vermont for
 Calendar Years 2004 Through 2006

 Review of High-Dollar Payments for Medicare
 Outpatient Claims Processed by National Government
                                                                     A-01-08-00521       10/17/2008
 Services, Inc., of Massachusetts for Calendar Years
 2004 and 2005

 Review of High-Dollar Payments for Medicare
 Outpatient Claims Processed by Pinnacle Business                    A-01-08-00512       08/18/2008
 Solutions, Inc., for Calendar Years 2004 Through 2006

 Review of High-Dollar Payments for Rhode Island
 Medicare Part B Claims Processed by Pinnacle
                                                                     A-01-08-00504       07/14/2008
 Business Solutions, Inc., for Calendar Year 2004
 Through 2006




Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)                 9
                     APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

During our audit period (July 1, 2009, through June 30, 2012), the Medicare contractor for
Jurisdiction 14 paid providers $767.7 million for 1.2 million line items for selected outpatient
drugs. We reviewed 779 line items, totaling $7,101,839 million that the Medicare contractor
paid to 60 providers. 13 We did not review entire claims; rather, we reviewed specific line items
within the claims. These line items included selected outpatient drugs with payment status
indicator code “G” or “K.” “G” identifies drugs and biologicals paid using the OPPS that
include a pass-through payment. 14 “K” identifies drugs, biologicals, therapeutic
radiopharmaceuticals, brachytherapy sources of radiation, blood, and blood products paid using
the OPPS without a pass-through payment.

We did not review the overall internal control structure of the Medicare contractor or the
providers because our objective did not require us to do so. Rather, we limited our review to
(1) the Medicare contractor’s internal controls to prevent the overpayment of Medicare claims
associated with the selected outpatient drugs and (2) providers’ internal controls to prevent
incorrect billing for outpatient drugs. Our review allowed us to establish reasonable assurance of
the authenticity and accuracy of the data obtained from CMS’s National Claims History file, but
we did not assess the completeness of the file.

We conducted our audit from December 2012 through March 2014 and performed fieldwork by
contacting NHIC in Chico, California, and 60 providers that received the selected Medicare
payments during our audit period.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal laws, regulations, and guidance;

     •   used CMS’s National Claims History file to identify outpatient line items for selected
         outpatient drugs (HCPCS codes with status indicator code “G” or “K”) for which
         Medicare payments were made during our audit period;

     •   used computer matching, data mining, and other analytical techniques to identify
         payments for outpatient drugs for which the number of units the provider billed was more
         than the number of units the provider would reasonably administer to a patient on a single
         date of service because these line items were at risk for noncompliance with Medicare

13
  The audit included a small number of line items for services provided before July 1, 2009, that were paid during
our audit period and a small number of line items for services provided before June 30, 2012, that were paid after
that date.
14
 Pass-through payments are additional payments made for a short time to cover the cost for certain innovative
medical devices, drugs, and biologicals that exceed Medicare’s OPPS payment amount.


Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)                               10
        billing requirements;

    •   selected 779 line items at risk of error, totaling $7,101,839 that the Medicare contractor
        paid to 60 providers;

    •   requested that 60 providers furnish documentation to support the services billed,
        including:

            o the physician’s order supporting the outpatient drug and amount ordered,

            o the drug administration record supporting that the outpatient drug was
              administered in the amount ordered, and

            o relevant financial or administrative notes related to the Medicare claim;

    •   reviewed the documentation provided to determine whether:

            o the billed information for the selected line items was correct and, if not, why the
              line item was incorrect,

            o the providers identified and adjusted the claim items before our review, and

            o the claimed units of the outpatient drug were based on dosing instructions
              provided with the packaging and any limitation on use (such as single-use or
              multiuse);

    •   calculated overpayment amounts, including adjustments to the claim due to changes in
        the allocation of the coinsurance amounts, in accordance with Federal requirements and
        Medicare payment procedures or used the amount determined by the Medicare
        contractor; and

    •   discussed the results of our review with the Medicare contractor.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)               11
        APPENDIX C: FEDERAL REQUIREMENTS RELATED TO MEDICARE
        CONTRACTOR PAYMENT AND PROVIDER BILLING FOR SELECTED
                          OUTPATIENT DRUGS

FEDERAL LAW AND REGULATIONS

The Act, section 1833(e), states: “No payment shall be made to any provider of services …
unless there has been furnished such information as may be necessary in order to determine the
amounts due such provider … for the period with respect to which the amounts are being
paid ….”

Further, the Act, sections 1861(s)(2) and 1861(t), define the terms “medical and other health
services” and “drugs and biologicals,” respectively. These sections identify those drug and
biological services that are covered services under the Medicare Part B program and also identify
any noncovered or excluded drug and biological services.

Federal regulations provide the methodology that Medicare uses to calculate payment for drugs
and biologicals, including the calculation of the coinsurance payment, which is limited to the
inpatient deductible amount for each year (42 CFR § 419.41).

CENTERS FOR MEDICARE & MEDICAID SERVICES GUIDANCE

CMS Pub. No. 100-06, Medicare Financial Management Manual, chapter 7, section 10, states:
“[CMS] contractors shall administer the Medicare program efficiently and economically to
achieve the program objectives.” Further, the Federal Managers’ Financial Integrity Act of 1982
(FMFIA) “establishes internal control requirements that shall be met by CMS. For CMS to meet
the requirements of FMFIA, CMS contractors shall demonstrate that they comply with the
FMFIA guidelines.” Consequently, “the contractor shall establish and maintain efficient and
effective internal controls to perform the requirements of the contract ….”

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

The Manual, chapter 23, section 20.3, states: “providers must use HCPCS codes … for most
outpatient services.”

The Manual, chapter 4, section 20.4, states: “The definition of service units … is the number of
times the service or procedure [HCPCS code] being reported was performed.”

The Manual, chapter 17, section 90.2.A, states: “It is … of great importance that hospitals
billing for these products [outpatient drugs] make certain that the reported units of service of the
reported HCPCS code are consistent with the quantity of a drug, biological, or
radiopharmaceutical that was used in the care of the patient.”




Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)             12
The Manual, chapter 17, section 10, states: “If the drug dose used in the care of a patient is not a
multiple of the HCPCS code dosage descriptor, the provider rounds to the next highest unit based
on the HCPCS long descriptor for the code in order to report the dose provided.”

The Manual, chapter 17, section 70, states that, if the provider is billing for an outpatient drug for
which a “HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 [milligrams], and
200 [milligrams] are provided, units are shown as 4 ….”

The Manual, chapter 17, section 40, states:

        When a physician, hospital or other provider or supplier must discard the
        remainder of a single use vial or other single use package after administering a
        dose/quantity of the drug or biological to a Medicare patient, the program
        provides payment for the amount of drug or biological discarded as well as the
        dose administered, up to the amount of the drug or biological as indicated on the
        vial or package label.

The section further notes: “Multi-use vials are not subject to payment for discarded amounts of
drug or biological.”

The Manual, chapter 1, section 140.1, states that Medicare contractors must: “edit for outpatient
and inpatient Part B claims that meet or exceed a reimbursement amount of $50,000.” The
section further notes that Medicare contractors must: “suspend those claims receiving the
threshold edit for development and contact providers to resolve billing errors.” If the Medicare
contractor determines that the reimbursement is excessive and corrections are required, the claim
must be returned to the provider. If the billing is accurate and the reimbursement is not
excessive, the Medicare contractors will override the edit and process the claim for payment.

CMS Pub. No. 100-02, Medicare Benefit Policy Manual (chapter 15, section 50.4.2), states:

        An unlabeled use of a drug is a use that is not included as an indication on the
        drug’s label as approved by the FDA. FDA approved drugs used for indications
        other than what is indicated on the official label may be covered under Medicare
        if the carrier determines the use to be medically accepted, taking into
        consideration the major drug compendia, authoritative medical literature and/or
        accepted standards of medical practice .… These decisions are made by the
        contractor on a case-by-case basis.




Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)             13
       APPENDIX D: NATIONAL GOVERNMENT SERVICES, INC., COMMENTS




8115 Knue Road
                                                                                                       MEDICARE
Indianapolis, IN 46250

www.NGSMedicare.com




May 23, 2014


Mr. David Lamir
Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services, Region I
JFK Federal Building
15 New Sudbury Street, Room 2425
Boston, MA 02203

Report Number: A-01-13-00504


Dear Mr. Lamir,

The following represents our response to the comments made in your report dated April 23, 2014:

Recommendation 1 - Recover the $1,318,065 in identified overpayments
The claims will be reviewed for adjustment and worked accordingly by our Claims unit. As the claims are
adjusted, the Overpayment Recovery unit will track the recoupments with the accompanying adjusted
claim DCN. Due to the large number of claims involved, our Performance Analysis team will also be
engaged to assist in obtaining the recouped amount.

Recommendation 2 - Verify the payment of $5,009 in identified underpayments
To date we have not started our review of the claims listed with this audit. Currently we have other OIG
audits that are in progress and we will begin review of this audit as the earlier ones are resolved.

Recommendation 3 - Use the results of this audit in its ongoing provider education activities
Provider Outreach and Education (POE) has recently completed educational sessions on billing Drugs
and Biologicals for hospitals. Based on the results of this OIG audit, POE will enhance its current
educational material as needed to encompass these audit findings and will schedule repeat sessions.

Hospitals identified through this audit will receive specific invitations to these upcoming educational
sessions, which will continue to be offered to the full provider community within JK. The program will




Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)                     14
address the full scope of issues associated with correct drug-billing processes, with a focus on the
problems identified by the OIG:

    •   Reporting units of service accurately when billing for drugs
    •   Supporting documentation necessary to describe the service fully
    •   HCPCS coding for drug services
    •   Covered versus non-covered drug usage and administration


Sincerely yours,

/s/ Scott Kimbell

Scott Kimbell,
Jurisdiction K Program Manager




Medicare Overpayments in Jurisdiction 14 for Selected Outpatient Drugs (A-01-13-00504)                 15
